                    December 15, 1999

                    A. KEITH STRANGE
                    VICE PRESIDENT, PURCHASING AND MATERIALS

                    SUBJECT:	 Acceptance of Delivery Vehicles
                              (Report Number DS-MA-00-001)

                    This management advisory report presents our observations
                    regarding actions necessary to correct the problems we
                    identified during our ongoing survey of delivery operations
                    (Project Number 99PF007DS001). During the survey, we
                    learned that the United States Postal Service plans to
                    accept delivery vehicles, under contract with the Ford Motor
                    Company (Ford), that do not meet specifications. We are
                    providing this interim report so immediate action can be
                    taken to correct the problems we identified.

Results in Brief    The Postal Service plans to accept delivery vehicles under a
                    contract with Ford that do not meet contract specifications
                    related to the Energy Policy and Conservation Act of 1992.
                    Although the Postal Service has taken action to help ensure
                    Postal Service interests are protected, we believe additional
                    precautions are needed. We offered four suggestions
                    identifying the actions Postal Service should take to make
                    sure its interests are adequately protected. Management
                    agreed with the suggestions and the planned actions are
                    responsive to our suggestions.

Delivery Vehicles   The Energy Policy and Conservation Act of 1992 (Act),
Contract            established requirements for purchasing and using
Specifications      “alternative fueled vehicles” by the federal government and
                    Postal Service. This Act requires that at least 75 percent of
                    the vehicles acquired for a federal fleet in fiscal year 1999
                    and beyond be alternative fueled vehicles.

                    To comply with the Act, Postal Service awarded a contract
                    in March 1999 to acquire 10,000 flexible fuel vehicles which
                    operate on both gasoline and ethanol fuel. Postal Service


                             Restricted Information
Acceptance of Delivery Vehicles                                                       DS-MA-00-001



                              has modified the contract four times and changed the
                              contract amount to $206 million. On November 4, 1999,
                              Postal Service exercised a contract option and issued a
                              modification to acquire 11,275 additional vehicles. The
                              contract will total $441 million when Ford executes the
                              modification. The cost to provide flexible fuel capability is
                              not specified in the contract. However, Postal Service
                              officials stated the additional cost was about $300 per
                              vehicle. Therefore, Postal Service will pay about
                              $6.4 million to equip 21,275 delivery vehicles with
                              alternative fuel capability. The contract requires Ford to
                              deliver 500 vehicles by January 14, 2000, and 1187
                              vehicles each month through June 2001.

Acceptance of                 The Postal Service plans to accept delivery of the vehicles
Delivery Vehicles             although they do not meet flexible fuel requirements of the
                              contract. In a November 2, 1999 letter, Ford advised Postal
                              Service that durability tests showed the fuel pump to be
                              used could operate only on gasoline and not ethanol, as
                              required. Postal Service officials stated the fuel pump failed
                              in less than 100 hours of engine run time when used with
                              ethanol fuel. In the letter, Ford stated a task force was
                              working on the problem and identified alternatives that were
                              being pursued to expedite development of an ethanol-
                              capable fuel pump. Ford’s letter also stated that vehicles
                              placed in service would be retrofitted when the problem is
                              solved. The letter stated “There will be no cost to Postal
                              Service for the retrofit, and we will develop a retrofit plan
                              that will minimize disruption to Postal Service operations.”

                              On November 15, 1999, Postal Service officials responded
                              to Ford’s letter and indicated that the delivery vehicles
                              would be accepted. Postal Service requested Ford to pay
                              for“ . . . travel as a result of the retrofit, all costs related to
                              the retrofits, including but not limited to travel for warranty-
                              related repairs.” Postal Service also requested Ford to
                              provide“ . . . a plan explaining how Ford will supply vehicles
                              conforming to the contract act as well as a plan to complete
                              all retrofits to non-conforming vehicles.” Finally, Postal
                              Service stated that it wants to actively participate in Ford’s
                              retrofit plans and expects“ . . . this issue to be resolved no
                              later than March 31, 2000.”

                              Since Postal Service urgently needs to replace aging
                              delivery vehicles, we agree the new vehicles should be


                                                  2
                                        Restricted Information
Acceptance of Delivery Vehicles	                                                  DS-MA-00-001



                               accepted if doing so does not preclude Postal Service from
                               complying with the Act. In addition, although the
                               November 15, 1999 letter will help to ensure Postal Service
                               interests are protected, we believe additional precautions
                               are needed. Specifically, the contract should provide
                               alternatives permitting Postal Service to either return the
                               vehicles at no cost if a solution is not found, or keep the
                               vehicles at a reduced price because of the vehicles’ inability
                               to operate on alternative fuels.

                               The November 15, 1999 letter also states Postal Service will
                               not incur any cost to retrofit the vehicles. However, except
                               for travel, the letter is not clear as to which expenses Ford
                               will pay. We believe Postal Service should identify and
                               recover all expenses, including salaries, fringe benefits, and
                               incidental cost, incurred by Postal Service personnel to
                               solve the problem and retrofit vehicles. In addition, Postal
                               Service should require Ford to provide details showing how
                               retrofit will be completed so as to impose only minimal
                               disruption to Postal Service operations.

Suggestions 	                  To help ensure the Postal Service interest is adequately
                               protected, we suggest the vice president, purchasing and
                               materials:

                               1. Consider the impact of accepting vehicles that do not
                                  comply with the Energy Policy and Conservation Act of
                                  1992, and act accordingly.

                               2. Modify the contract with Ford to specify that Postal
                                  Service may return the vehicles if Ford cannot produce
                                  an ethanol capable fuel pump or keep the vehicles at a
                                  reduced price because of the vehicle’s inability to
                                  operate on alternative fuels.

                               3. Identify and recover all costs including salaries, fringe
                                  benefits, and incidental costs incurred by Postal Service
                                  personnel to solve the problem and retrofit vehicles.

                               4. Obtain a written plan from Ford to show how retrofit work
                                  will be accomplished so as to impose only minimal
                                  disruption to Postal Service operations.




                                                  3
                                        Restricted Information
Acceptance of Delivery Vehicles                                                   DS-MA-00-001



Management’s                  Management agreed with our suggestions and stated that
Comments                      the suggestions were appreciated. Management also
                              stated that the Postal Service was in compliance with the
                              Energy Policy and Conservation Act of 1992 by ordering flex
                              fuel vehicles from Ford. Further, management stated that if
                              Ford is unable to comply with the contract, they will enter
                              negotiations to return the vehicles or obtain a price
                              reduction, identify and recover all costs to retrofit vehicles,
                              and obtain a written retrofit plan from Ford. Management’s
                              comments, in their entirety, are included in the appendix.

Evaluation of                 Management’s comments are responsive to our
Management’s                  suggestions. The planned actions will help ensure Postal
Comments                      Service interests are adequately protected if Ford is unable
                              to comply with the contract.

                              We appreciate the cooperation and courtesies provided by
                              your staff during the review. If you have any questions,
                              please contact me at (703) 248-2300.



                              Richard F. Chambers
                              Assistant Inspector General
                                for Performance

                              cc: Clarence E. Lewis Jr.
                                  John E. Potter
                                  John A. Rapp
                                  John R. Gunnels




                                                 4
                                       Restricted Information
Acceptance of Delivery Vehicles                            DS-MA-00-001



                          APPENDIX. MANAGEMENT COMMENTS





                                            5

                                  Restricted Information
Acceptance of Delivery Vehicles                            DS-MA-00-001




                                            6

                                  Restricted Information
Acceptance of Delivery Vehicles                            DS-MA-00-001



 Major Contributors to
 The Report




                                            7
                                  Restricted Information
